.s

No. 19-1004
IN THE
SUPREME COURT OF THE UNITED STATES

ROBERT JAMES JAFFE, M.D.
Petitioner,
vs.
Brad Sherman, US Congressman, and Does 1-10
Respondent

After a Denial of Petition for Writ of Certiorari by the Justices of the US Supreme
Court

Motion for Leave to File a Petition for Rehearing

Robert James Jaffe, M.D.
Internal Medicine
22139 Burbank Blvd. Suite Five
Woodland Hills, CA 91367
Telephone: 818-713-1378

PETITIONER’S MOTION FOR LEAVE TO FILE A
PETITION FOR REHEARING

Petitioner’s Motion for Leave to File a Petition for Rehearing
results from and is due time requisites and circumstances directly
related to the Covid-19 Outbreak - the mandatory closing of businesses,
and stay at home orders and is in accord with the Court’s March 19, 2020
Order and the Clerk’s June 12, 2020 letter to Petitioner.
On May 26, 2020 Petitioner mailed his Petition for Rehearing to the
U.S. Supreme Court, and on June 4, 2020 the US Supreme Court
received Petitioner’s Petition. The Clerk of the U.S. Supreme Court via
letter of that date, June 4th informed Petitioner that Petitioner’s
Petition for Rehearing per Rule 44 had been due before May 15, and
therefore Petitioner’s Petition was “out of time”.
However, due to the Covid-19 crisis, the US Supreme Court, on March
19, 2020 via Order provided extensions of time on all filing deadlines
wherein difficulties in on time filing existed that were related to the
corona virus outbreak.
The US Supreme Court’s Order of March 19, 2020 states:
“Motions to extend the time to file documents “will ordinarily be
granted by the as a matter of course if the grounds for the application
are difficulties related to the Covid-19 and if the length of the extension
request is reasonable under the circumstances.”.
In Petitioner’s case, the reasons for failure to file his Petition for Rehearing
on time were directly related to and involved the COVID-19 outbreak.
Petitioner had timely prepared his Petition for Rehearing within the Rule 44
time frame - from date (April 20) of the denial of his Petition for Writ of
Certiorari. However because of the mandatory closing of businesses and the
stay at home orders as a result Covid-19 outbreak, Petitioner’s printing office,
which had performed all of Petitioner’s past legal applications, was closed, as
were all other such offices. Therefore the printing office was unable to handle
the Petitioner’s printing job - the composing, printing and binding of 43

copies of Petitioner’s Petition for Rehearing.
Furthermore, due to the stay at home orders, Petitioner’s assistants, in the
past who had assisted Petitioner in such tasks, were was unable to assist him
in preparing the Petition for Rehearing and the books thereof. Petitioner was
able to complete his Petition by the time and break provided by the three day
Memorial Day weekend with Memorial Day being Monday May 25, 2020, and
send the Petition to the Court on the next day May 26.
The Clerk on June 4 returned the Petition for Rehearing books (stamped
received June 4 and received June 12, 2020) with Petitioner’s Petition for
Leave to File a Petition for Rehearing. The Clerk provides the Clerk’s letter
of June 12, 2020 to Petitioner that Petitioner may Motion for Rehearing
and Petition for Rehearing, and that one copy of each on 8 ^ x 11 inch
paper is permitted.
Petitioner thanks the Clerk for his aid, via his letters, in this matter.
Petitioner herein submits this Petitioner’s Motion for Leave to File a
Petition for Rehearing accompanied with his Petition for Rehearing
and requests that the Court and its Clerk permit Petitioner’s Petition for
Rehearing be entered with the Court.
Respect:

ubmitted

Robert H. Jaff^e,)MD
Per.
Petitioner!
June 19, 2020

